Report No. D-2008-093            May 14, 2008




     Processing of Deceased Retired Military
         Members' Suspended Accounts
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DFAS R&A              Defense Finance and Accounting Service Retired and Annuitant
                       Pay
DRAS                  Defense Retiree and Annuitant Pay System
SSA                   Social Security Administration
SSN                   Social Security Number
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                           May 14, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTNG
                 SERVICE

SUBJECT: Report on Processing of Deceased Retired Military Members' Suspended
         Accounts (Report No. D-2008-093)


      Weare providing this report for your information and use. We considered
management comments on a draft of this report when preparing the final report.

       The Office of the Under Secretary of Defense (Comptroller)/ChiefFinancia1
Officer and Defense Finance and Accounting Service comments on the draft of this report
conformed to the requirements of DoD Directive 7650.3 and left no unresolved issues.
Therefore, no additional comments are required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Kenneth B. VanHove at (216) 706-0074, ext. 245 or Mr. John C. Petrucci at
(216) 706-0074, ext. 266. See Appendix D for the report distribution. The team
members are listed inside the back cover.




                                       lol~()v            a, !J1cwJ./
                                       Patricia A. Marsh, CPA
                                     Assistant Inspector General
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-093                                                        May 14, 2008
 (Project No. D2007-D000FC-0205.000)

                    Processing of Deceased Retired Military
                        Members' Suspended Accounts

                                 Executive Summary

Who Should Read This Report and Why? Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer personnel and Defense Finance and Accounting
Service representatives responsible for processing payments for retired military members
should read this report. This report discusses processing deceased retired military
members’ suspended accounts.

Background. The Defense Finance and Accounting Service Retired and Annuitant Pay
Office, located in Cleveland, Ohio, is responsible for servicing military retirees and its
annuitants. Lockheed Martin, the servicing contractor, is responsible for maintaining all
existing retiree and annuitant accounts. Lockheed Martin uses the Defense Retiree and
Annuitant Pay System to administer monthly payroll and pay-related services for military
retirees and their annuitants. The Defense Retiree and Annuitant Pay System maintains
pay and personnel information for use in computing military retired pay and survivor
benefits. Deceased retired military members’ suspended accounts are considered
suspected deceased accounts when death has not been confirmed. As of July 9, 2007, the
Defense Finance and Accounting Service Retired and Annuitant Pay Office maintained
over 82,000 suspected deceased accounts.

The Defense Finance and Accounting Service Retired and Annuitant Pay Office initiates
the suspension process of a suspected deceased account upon notification of death. Once
suspended, the Defense Finance and Accounting Service Retired and Annuitant Pay
Office does not make any additional payments to the suspected deceased individual. The
Defense Finance and Accounting Service Retired and Annuitant Pay Office suspends
these accounts until it confirms dates of death through receipt of a death certificate from
the beneficiary or next of kin or receipt of a DD Form 1300, “Report of Casualty.” It
also can obtain death certificates from the Department of Veterans Affairs. Once deaths
are confirmed, the Defense Finance and Accounting Service Retired and Annuitant Pay
Office terminates the suspected deceased account and can recover erroneous payments.

Results. The Defense Finance and Accounting Service did not efficiently process
suspected deceased accounts. The Defense Retiree and Annuitant Pay System contained
over 82,000 suspected deceased accounts with unconfirmed dates of death. Over the past
9 years, the number of suspected deceased accounts quadrupled. Additionally, based on
our statistical sample, approximately 16,000 suspected deceased accounts included
erroneous payments. Since February 2002, the Defense Finance and Accounting Service
Retired and Annuitant Pay Office has, therefore, paid Lockheed Martin almost $4 million
for maintaining suspected deceased accounts. The Defense Finance and Accounting
Service Retired and Annuitant Pay Office could avoid costs of $2 million for maintaining
suspected deceased accounts over the next 4 years. Additionally, the Defense Finance
and Accounting Service Retired and Annuitant Pay Office did not recover approximately
$84.1 million paid to deceased retired military members. The Under Secretary of
Defense (Comptroller)/Chief Financial Officer should modify DoD Financial
Management Regulation, volume 7B, chapter 30, “Death of Retiree,” June 2005, to allow
information other than death certificates or DD Form 1300, “Report of Casualty,” for
confirming dates of death of deceased retired military members. The Director, Defense
Finance and Accounting Service should revise policies and procedures to ensure timely
termination of suspected deceased accounts, define information other than death
certificates or DD Form 1300, “Report of Casualty” for confirming dates of death of
deceased retired military members, recover erroneous payments made to deceased retired
military members, and terminate suspected deceased accounts maintained over 6 years.
Implementing the recommendations would allow the Defense Finance and Accounting
Service Retired and Annuitant Pay Office to avoid costs of $2 million for maintaining
suspected deceased accounts over the next 4 years and recover $84.1 million in erroneous
payments made to deceased retired military members. See the Finding section for the
detailed recommendations. See Appendix B for the sample analysis and interpretation
and Appendix C for a summary of the potential monetary benefits.

Defense Finance and Accounting Service internal controls were not adequate. We
identified a material internal control weakness in its processing of suspected deceased
accounts. See the Finding section for further details on the material internal control
weaknesses.

Management Comments. The Deputy Chief Financial Officer and the Director,
Defense Finance and Accounting Service Cleveland concurred with our
recommendations. The comments were responsive to the recommendations, and no
additional comments are needed. See the Finding section of the report for a discussion of
management comments and the Management Comments section of the report for the
complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     3

Review of Internal Controls                                                    3

Finding
     Efficiency of Processing Suspected Deceased Accounts                      4
     Other Matters of Interest                                                10

Appendixes
     A.   Scope and Methodology                                               11
     B.   Statistical Sample                                                  13
     C.   Potential Monetary Benefits                                         14
     D.   Report Distribution                                                 15

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                               17
     Defense Finance and Accounting Service                                   20
Background
           The Defense Finance and Accounting Service Retired and Annuitant Pay Office
           (DFAS R&A), located in Cleveland, Ohio, is responsible for servicing military
           retirees and its annuitants. It is comprised of the Continuing Government
           Activity, DFAS Contracting Services Directorate, and the servicing contractor.
           The Continuing Government Activity provides contractor oversight of Lockheed
           Martin. It ensures that Lockheed Martin complies with the contractual
           requirements and all contractual changes are coordinated.

           Retired and Annuitant Pay Contract History. In 2001, DFAS contracted with
           Affiliated Computer Services Government Solutions Group, Inc. to manage pay
           accounts and provide payroll services to military retirees, surviving annuitants,
           and other pay recipients. Specifically, the contractor was responsible for
           maintaining and upgrading technology, proposing and applying best business
           practices, and maintaining a management structure that serves as a “business
           partnership” with DFAS. During May 2004, Lockheed Martin Government
           Services, Inc. became the contractor. Lockheed Martin uses the Defense Retiree
           and Annuitant Pay System (DRAS) to administer monthly payroll and pay-related
           services for military retirees and their annuitants.

           DRAS. In FY 2006, Lockheed Martin used DRAS to pay approximately
           $41 billion in annuities and pensions to 2.1 million military retirees, surviving
           annuitants, and other pay recipients. DRAS maintains pay and personnel
           information for use in computing military retired pay and survivor benefits. It
           also maintains all account status changes. Status changes are classified within
           DRAS as temporary, reinstatement, or permanent. Some temporary status
           changes include undeliverable pay, recall to active duty, and the suspected death
           of a retired military member. Deceased retired military members’ suspended
           accounts are considered suspected deceased accounts until dates of death are
           confirmed. Although these accounts are suspended, Lockheed Martin bills DFAS
           R&A bi-weekly for maintaining the accounts within DRAS. As of July 9, 2007,
           DFAS R&A maintained over 82,000 suspected deceased accounts. DFAS R&A
           continues to pay maintenance fees on all suspected deceased accounts until they
           are settled.

           Suspected Deceased Accounts Process. DFAS R&A initiates the suspension
           process of a suspected deceased account upon notification of death. Death
           notifications are provided by relatives, friends, financial institutions, Social
           Security Administration (SSA) Death Master File matches, DD Form 1300,
           “Report of Casualty,” 1 military hospitals, and other Federal agencies. Within the
           audit sample, DFAS R&A received 72 percent of notifications from family
           members and friends, the Department of Veterans Affairs, and financial
           institutions. Of the 72 percent, over half of the death notifications came from
           family members and friends. Studies conducted by the U.S. Government
           Accountability Office have shown that notifications from family members and
           funeral homes are over 99 percent accurate. DFAS R&A immediately suspends

1
    DD Form 1300, “Report of Casualty,” is a notification of death sent by the DoD Component reporting an
    active duty death.



                                                     1
retired military members’ accounts upon notification of death from these sources.
Figure 1 identifies death notification methods within the audit sample.


                 Figure 1. Death Notification Methods Within Audit Sample*




                                                                    Family/Friends
                  15%

         1%                                                         Department of Veterans
                                                                    Affairs
        2%
                                                                    Financial Institution/Returned
                                                     42%            Payment
        9%                                                          Social Security Administration
                                                                    Death Master File Match
                                                                    Death Certificate/DD Form
                                                                    1300
         10%                                                        Other

                                                                    Information Not Available
                           20%


 *The sum of the percentages within the figure do not equal 100% due to rounding.


SSA Death Master File. DFAS R&A does not immediately suspend accounts
for death notifications provided through SSA Death Master File matches. The
SSA Death Master File is an extensive database containing information on
deceased individuals who were issued social security numbers. The Defense
Manpower Data Center compares the SSA Death Master File with DRAS
accounts and reports matches to DFAS R&A. DFAS R&A independently verifies
SSA Death Master File matches by calling relatives of suspected deceased
members. If attempts to reach a relative are not successful within 60 days, DFAS
R&A suspends the account.

Termination Process. Once suspended, DFAS R&A does not make any
additional payments to the suspected deceased individual. DFAS R&A suspends
these accounts until it confirms dates of death through receipt of a death
certificate from the beneficiary or next of kin or receipt of a DD Form 1300. To
obtain death certificates, DFAS R&A initially sends a letter to the beneficiary or
next of kin. If DFAS R&A does not receive the death certificate, it sends
additional letters at 12 weeks and 3 years from the notification date. DFAS R&A
could also obtain death certificates from the Department of Veterans Affairs, as
an information sharing agreement already exists between the two organizations.
Once deaths are confirmed, DFAS R&A terminates the suspected deceased
account and can recover erroneous payments.


                                            2
Objective
     Our objective was to determine whether DFAS efficiently processed deceased
     retired military members’ suspended accounts. See Appendix A for a discussion
     of the scope and methodology.


Review of Internal Controls
     We identified material internal control weaknesses for DFAS as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
     January 4, 2006. DFAS did not have adequate procedures for obtaining death
     information necessary to recover erroneous payments made to deceased retired
     military members. Specifically, DFAS relied on others to provide the
     documentation necessary to initiate the termination of suspected deceased
     accounts. Implementing recommendations 1., 2.a., 2.b., and 2.c. will strengthen
     policies and procedures to ensure termination of suspected deceased accounts and
     could result in potential monetary benefits of $84.1 million (see Appendix C).
     We will provide a copy of the final report to the senior official responsible for
     internal controls in DFAS.




                                         3
            Efficiency of Processing Suspected
            Deceased Accounts
            DFAS did not efficiently process suspected deceased accounts. DRAS
            contained over 82,000 suspected deceased accounts with unconfirmed
            dates of death. Over the past 9 years, the number of suspected deceased
            accounts quadrupled. Additionally, based on our statistical sample,
            approximately 16,000 suspected deceased accounts included erroneous
            payments. DFAS R&A termination policies and procedures were not
            adequate to confirm dates of death and recover erroneous payments. As a
            result, since February 2002, DFAS R&A paid Lockheed Martin almost
            $4 million for maintaining suspected deceased accounts. DFAS R&A can
            avoid costs of $2 million for maintaining suspected deceased accounts
            over the next 4 years. Additionally, DFAS R&A did not recover
            approximately $84.1 million paid to deceased retired military members.


Criteria for Processing Suspected Deceased Accounts
     United States Code. Section 3702, title 31, United States Code established a
     6-year limitation for individuals to make claims for retired pay against the Federal
     Government.

     DoD Financial Management Regulations. DoD Financial Management
     Regulation, volume 7B, chapter 30, “Death of Retiree,” June 2005, requires
     DFAS to suspend retired military pay accounts upon receipt of a notification of
     death from any source until the date of death can be verified. DFAS R&A
     verifies the death and terminates the retiree’s account upon receipt of a death
     certificate or DD Form 1300. Additionally, unrecovered funds are treated as
     erroneous payments; every attempt should be made to recover all payments
     forwarded past the date of entitlement.


Increase in Suspected Deceased Accounts
     DFAS did not efficiently process suspected deceased accounts. DRAS contained
     over 82,000 suspected deceased accounts with unconfirmed dates of death. Over
     the past 9 years, the number of suspected deceased accounts quadrupled. In 1998,
     DFAS R&A maintained about 22,000 accounts. These suspected deceased
     accounts increased by at least 5,000 accounts each year. For example, the
     suspected deceased accounts increased by almost 11,000 accounts in 2006.
     Figure 2 depicts the increase in suspected deceased accounts maintained by
     DFAS R&A.




                                          4
                                               Figure 2. Suspected Deceased Accounts Maintained by DFAS R&A

                                   90,000
                                   80,000
                                   70,000
              Suspended Accounts

                                   60,000
                                   50,000
                                   40,000
                                   30,000
                                   20,000
                                   10,000
                                       0
                                            1976

                                                   1978

                                                          1980

                                                                 1982

                                                                        1984

                                                                               1986

                                                                                      1988

                                                                                             1990

                                                                                                      1992

                                                                                                             1994

                                                                                                                    1996

                                                                                                                           1998

                                                                                                                                  2000

                                                                                                                                         2002

                                                                                                                                                2004

                                                                                                                                                       2006
                                                                                                    Year



           Additionally, the number of suspected deceased accounts may continue to
           exponentially increase as the number of members who served in the military
           during World War II continue to age. As deaths of World War II veterans are
           projected to increase, the number of suspected deceased accounts will increase
           when dates of death are not confirmed.


Payments to Suspected Deceased Accounts
           Based on our statistical sample, approximately 16,000 suspected deceased
           accounts included erroneous payments. Once notified of a death, DFAS R&A
           suspends retired military pay until the date of death is confirmed. However,
           DFAS R&A already made erroneous payments to the deceased retired military
           member prior to notification. After DFAS R&A confirms the retired military
           member’s date of death, it can recover the erroneous payments. If a date of death
           is not confirmed, DFAS R&A suspends the suspected deceased account
           indefinitely without attempting to recover erroneous payments.


Termination of Suspected Deceased Accounts
           DFAS R&A termination policies and procedures were not adequate to confirm
           dates of death and recover erroneous payments. At our request, DFAS R&A
           conducted an analysis of the effectiveness of obtaining death certificates using
           current policies. DFAS R&A sent 10,690 letters during a 3-month period.
           During that same period, DFAS R&A received 9,520 2 death certificates. Of the
           death certificates received, 99 percent were obtained before sending the 12-week
           letter. However, only one percent of the death certificates were obtained after the
2
    Some of the death certificates received during the 3 months may not have been responses to the letters
    sent during this period.


                                                                                      5
    12-week letter and none were received after the 3-year letter. Although they
    received a high response rate to the initial letter, DFAS R&A did not receive
    death information to terminate all accounts.

    Additionally, DFAS R&A did not contact the Department of Veterans Affairs to
    obtain death certificates necessary to terminate suspected deceased accounts and
    recover any outstanding erroneous payments. The Department of Veterans
    Affairs retains death certificates for burial and memorial benefits. DFAS R&A
    should contact the Department of Veterans Affairs to obtain death certificates.

    Confirming Payments Made to Deceased Retired Military Members. Within
    the audit sample, we were able to confirm erroneous payments of approximately
    $234,000. A DFAS R&A representative stated that DFAS R&A considers the
    cost of obtaining death certificates. However, we paid about $500 to obtain death
    certificates that confirmed approximately $107,000 in erroneous payments.
    Without incurring any additional costs, we also confirmed an additional $127,000
    in erroneous payments using public and other Government Web sites. By
    confirming dates of death of suspected deceased accounts, DFAS R&A can
    terminate and recover erroneous payments made after dates of death.

    Other Federal Agencies Termination Process. Other Federal agencies do not
    require death certificates to terminate benefits and recover erroneous payments
    made to deceased individuals, specifically, the Department of Veterans Affairs
    and SSA. For example, SSA immediately terminates benefits upon notification
    from a family member, friend, funeral director, lawyer, or agent of the individual.
    If they are notified by a financial institution, postal authority, or other government
    agency, SSA contacts the beneficiary, a representative payee, a nursing home, or
    doctor to verify the death. If they are unable to verify the death, SSA
    automatically suspends benefits 20 days after initial notification and terminates
    benefits 60 days later. These Federal agencies terminate benefits because there is
    no statute that requires Federal agencies to obtain death certificates to terminate
    accounts.

    Although there is no statutory requirement for a death certificate to terminate
    suspected deceased benefits, DoD Financial Management Regulation, volume B,
    chapter 30, “Death of Retiree,” June 2005, requires a death certificate, or DD
    Form 1300, for terminating a suspected deceased account. Modifying the DoD
    Financial Management Regulation to allow other information for confirming
    dates of death would give DFAS R&A the ability to efficiently terminate
    suspected deceased accounts and initiate the recovery of erroneous payments.


Maintenance Fees for Suspected Deceased Accounts
    Since February 2002, DFAS R&A paid Lockheed Martin almost $4 million for
    maintaining suspected deceased accounts. Of the 82,000 suspected deceased
    accounts, approximately 37,000 accounts were suspended in excess of 6 years.
    For example, one account was suspended in 1976 and DFAS R&A continued to
    maintain the account through July 2007. However, section 3702, title 31, United
    States Code established a 6-year limitation for individuals to make claims for


                                          6
    retired pay against the Federal Government. DFAS R&A could have avoided
    paying $1.7 million if they had terminated suspected deceased accounts after
    6 years. Additionally, by terminating accounts at 6 years, DFAS R&A can avoid
    costs of $2 million over the next 4 years.


Recovery of Payments Made to Suspected Deceased Accounts
    DFAS R&A did not recover approximately $84.1 million paid to deceased retired
    military members. DFAS R&A did not recover erroneous payments because it
    did not confirm dates of death. Specifically, DFAS R&A often used the
    notification date as the date of death, limiting the ability in DRAS to recover
    erroneous payments. In other instances, DFAS R&A obtained the correct date of
    death; however, the death notification was provided well after the date of death.
    For example, DFAS R&A was notified in September 2006 that a retired military
    member died on February 25, 2003, but did not attempt to recover the $19,210 in
    erroneous payments. Additional unrecovered erroneous payments occurred when
    DFAS R&A was notified of a retired military member’s death through SSA Death
    Master File matches. DFAS R&A could erroneously make two additional
    payments before suspending the account. DoD Financial Management
    Regulation, volume B, chapter 30, “Death of Retiree,” June 2005, states that
    unrecovered funds are treated as erroneous payments; every attempt should be
    made to recover all payments forwarded past the date of entitlement.


Management Comments on the Finding and Audit Response
    Management Comments. The Director, Defense Finance and Accounting
    Service Cleveland stated that the DoD Office of the Inspector General report
    makes several recommendations with which she generally concurs. However, the
    Director, Defense Finance and Accounting Service Cleveland believed that the
    projection should be $57.4 million. In addition, she indicated that up to
    $45 million of the $57.4 million was outside the direct control of Defense Finance
    and Accounting Service Retired and Annuitant Pay based on current DoD
    Financial Management Regulation policy requiring proof of death for collection
    of overpayments.

    Audit Response. Because the Defense Finance and Accounting Service provided
    additional documentation after the issuance of the draft report, the auditors
    revisited their analysis and revised the statistical projection from $95.3 million to
    $84.1 million. The Director, Defense Finance and Accounting Service Cleveland
    did not introduce any additional support to further reduce the statistical projection
    to $57.4 million. The differences in statistical projections were caused by
    discrepancies in erroneous payment methodologies. The primary difference was
    the audit team used gross pay to calculate total erroneous payments and the
    Defense Finance and Accounting Service used net pay. The audit team
    considered total payments as erroneous, not just the net portion.




                                          7
    The Director, Defense Finance and Accounting Service Cleveland also believed
    that up to $45 million of the $57.4 million was outside the direct control of
    Defense Finance and Accounting Service Retired and Annuitant Pay. However,
    the audit team obtained death certificates with minimal effort for about $500
    confirming approximately $107,000 in erroneous payments within the audit
    sample. Some States even provided death certificates at no cost. The Defense
    Finance and Accounting Service could have taken similar steps to obtain death
    certificates.

    The Director, Defense Finance and Accounting Service Cleveland recognized that
    the Defense Finance and Accounting Service did not recover erroneous payments
    made to deceased retired military members. When the Defense Finance and
    Accounting Service implements our recommendations and initiates recovery of
    funds, it will identify the actual amount of erroneous payments.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer modify DoD Financial Management Regulation, volume
    7B, chapter 30, “Death of Retiree,” June 2005, to allow information other
    than a death certificate or DD Form 1300 “Report of Casualty” for
    confirming dates of death of deceased retired military members.

    Management Comments. The Deputy Chief Financial Officer concurred and
    issued a policy memorandum on March 21, 2008, to allow information other than
    a death certificate or DD Form 1300 to confirm dates of death for deceased retired
    military members. The policy change was effective immediately and will be
    incorporated into the next update of DoD Financial Management Regulation,
    volume 7B, chapter 30, “Death of Retiree.”

    Audit Response. The Deputy Chief Financial Officer’s comments were
    responsive and conform to requirements; no additional comments are needed.

    Management Comments. Although not required to comment, the Director,
    Defense Finance and Accounting Service Cleveland concurred and stated that the
    policy memorandum issued by the Deputy Chief Financial Officer would give
    Defense Finance and Accounting Service the ability to efficiently terminate
    suspended accounts.

    Audit Response. Although not required to comment, the Director, Defense
    Finance and Accounting Service Cleveland agreed with our recommendation.

    2. We recommend that the Director, Defense Finance and Accounting
    Service:

           a. Revise policies and procedures to ensure timely termination of
    suspected deceased accounts. The Defense Finance and Accounting Service



                                        8
should consider accepting notifications from family members and funeral
homes, contacting the Department of Veterans Affairs to obtain death
certificates, purchasing death certificates, using public and other
Government Web sites for confirming deaths, and automatically terminating
benefits 80 days after notification.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland concurred and agreed to amend policies and procedures to
terminate suspected deceased accounts based upon recent changes to the DoD
Financial Management Regulation. Corrective action will be completed by
July 1, 2009.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland’s comments were responsive and conform to requirements; no
additional comments are needed.

       b. Define information other than death certificates or DD Form 1300,
“Report of Casualty” for confirming dates of death of deceased retired
military members.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland concurred and agreed to implement the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer directed modification
to the DoD Financial Management Regulation that expands the definition of
acceptable proof of death documentation for terminating a suspended retired pay
account. The recommendation is considered closed as of March 26, 2008.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland’s comments were responsive and conform to requirements; no
additional comments are needed.

     c. Recover erroneous payments made to deceased retired military
members.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland concurred and stated current procedures are in effect to recover
erroneous payments made to deceased retired military members. The Defense
Finance and Accounting Service will ensure that action is taken to recover any
erroneous payments that may have been made in cases in which a suspended
account is terminated in accordance with the revised procedures. The
recommendation is considered closed as of March 20, 2008.

Audit Response. The Director, Defense Finance and Accounting Service
Cleveland’s comments were responsive and conform to requirements; no
additional comments are needed.

       d. Terminate suspected deceased accounts maintained over 6 years.

Management Comments. The Director, Defense Finance and Accounting
Service Cleveland concurred and will work with Lockheed Martin Business
Process Solutions to implement system changes to terminate suspected deceased


                                    9
          accounts that have been in a suspended status for more than 6 years. Corrective
          action will be completed by July 1, 2009.

          Audit Response. The Director, Defense Finance and Accounting Service
          Cleveland’s comments were responsive and conform to requirements; no
          additional comments are needed.


Other Matters of Interest
          Validity of Suspected Deceased Accounts. DFAS R&A maintained
          40 suspected deceased accounts that contained invalid information. Specifically,
          DRAS included altered members’ service numbers 3 rather than the members’
          Social Security Number (SSN). The Military Departments maintained retired
          members’ accounts by their service number. In 1963, the Internal Revenue
          Service required SSNs for tax and identification purposes for retirees. The
          Military Departments then requested retired members provide their assigned
          SSNs to update their accounts. If a response was not received, the Military
          Departments assigned fictitious SSNs to the retired members by altering their
          service number. For example, the Army assigned a retired military member’s
          account a fictitious SSN starting with 810. However, the SSA has not issued 800
          series SSNs. Additionally, DRAS included data entry errors for suspected
          deceased accounts. For example, DRAS included a date of death of 1898 for one
          deceased retired military member account even though the actual date of death
          was 1998. This account remained active for almost 10 years because the
          suspected date of death within DRAS did not match the date of death on the death
          certificate.




3
    Service numbers were issued to military members by the Military Departments. These numbers were
    used to store and locate military members’ records.



                                                   10
Appendix A. Scope and Methodology
   We conducted this performance audit from June 2007 through February 2008 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on the audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   To review the processing of deceased retired military members’ suspended
   accounts, we evaluated the DFAS R&A process of suspending and terminating
   the suspected deceased accounts. As of July 9, 2007, DRAS included 82,855
   suspected deceased accounts. We excluded 40 SSNs because they were
   determined to be invalid. The remaining population consisted of 82,815 unique
   SSNs. We used a statistical sample of 300 SSNs. See Appendix B for the
   statistical sampling plan. We interviewed representatives from the Office of the
   Under Secretary of Defense (Comptroller)/Chief Financial Officer; DFAS
   Military Pay; DFAS R&A; and Lockheed Martin. Additionally, we interviewed
   representatives from the Department of Veterans Affairs, the Department of
   Health and Human Services, SSA, and their respective Offices of the Inspector
   General. We also contacted the National Association for Public Health Statistics
   and Information Systems and the Office of Vital Statistics in various States.

   To accomplish the audit objective:

      •   We contacted the Office of the Under Secretary of Defense
          (Comptroller)/Chief Financial Officer to determine its involvement in the
          suspension and termination of suspected deceased accounts and to identify
          legal statues requiring death certificates.

      •   We met with members of DFAS R&A, Cleveland, Ohio, to obtain a
          universe of suspected deceased accounts and gain an understanding of the
          suspension and termination process. We obtained and reviewed pay
          documentation for 300 SSNs and identified payments made after the dates
          of death. Additionally, we reviewed contract number
          MDA220-01-C-0002 and modifications to identify procedures for
          processing suspected deceased accounts. We also reviewed bi-weekly
          invoices between February 2002 and September 2007 to identify the cost
          for maintaining suspected deceased accounts.

      •   We contacted representatives from the Department of Veterans Affairs,
          the Department of Health and Human Services, SSA, and their respective
          Offices of the Inspector General to identify their process for terminating
          benefits for deceased individuals. Additionally, we verified dates of death
          by contacting the Office of Vital Statistics in various States to obtain death
          certificates for suspected deceased accounts. We also confirmed other
          dates of death through America’s Obituaries and Death Notices and
          Department of Veterans Affairs Nationwide Gravesite Locator Web sites.



                                        11
    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of DRAS, although we relied on data produced by this system
    to conduct the audit. We determined data reliability by verifying dates of death
    through obtaining death certificates and other sources of information. Although
    we did not evaluate additional controls, it did not affect the results of the audit.

    Use of Technical Assistance. An Operations Research Analyst of the
    Quantitative Methods Directorate, DoD Office of Inspector General assisted with
    the project sample selection and projection of results. The Data Mining
    Directorate, DoD Office of Inspector General coordinated with the Defense
    Manpower Data Center to obtain SSA Death Master File information for the audit
    universe. Additionally, the Office of Legal Counsel, DoD Office of Inspector
    General provided legal support regarding interpretation of applicable regulations.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD financial management high-risk area.


Prior Coverage
    During the last 5 years, the DoD Inspector General issued one report related to
    deceased military members’ suspended accounts. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2005-007, “Military Retirement Fund Processes Related to
    Deceased Retirees’ Accounts,” October 25, 2004




                                        12
Appendix B. Statistical Sample
    Population. DFAS R&A provided us with 82,855 unique SSNs maintained
    within DRAS as of July 9, 2007. We excluded 40 SSNs because they were
    determined to be invalid. The remaining population consisted of 82,815 unique
    SSNs.

    Sample Plan. The Quantitative Methods Directorate, DoD Office of Inspector
    General selected records using a simple random sample. The Quantitative
    Methods Directorate selected a random sample of 300 SSNs for review.

    Analysis and Interpretation. Through an analysis of each SSN contained in the
    sample, we identified 58 suspected deceased accounts with erroneous payments
    totaling $304,759. The table provides the Quantitative Methods Directorate
    projection of these amounts across the population at a 95-percent confidence
    level.



        Projection of Suspected Deceased Accounts with Erroneous Payments

                             Number of Suspected           Erroneous Payments
                              Deceased Accounts                (in dollars)

     Upper Bound                    19,847                  123.0 million

     Point Estimate                 16,011                    84.1 million

     Lower Bound                    12,175                    45.3 million




                                      13
Appendix C. Potential Monetary Benefits
                    Summary of Potential Monetary Benefits

     Recommendation        Type of Benefit      Amount of       Accounts
        Reference                                 Benefit
                                                (in dollars)

    2.d.                  Economy and           2 million      Military
                          Efficiency.                          Retirement
                          Maximizes cost                       Fund
                          avoidance by
                          reducing future
                          fees associated
                          with maintaining
                          suspected
                          deceased accounts.
    1., 2.a., 2.b., and   Management          84.1 million     Military
    2.c.                  Controls. Allows                     Retirement
                          DFAS to                              Fund
                          efficiently recover
                          erroneous
                          payments.




                                       14
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      16
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       17
18
19
Defense Finance and Accounting Service
Comments




                      20
     Final Report
      Reference




     Revised
     Pages 3, 4,
     6, 7, 13, and
     14




21
22
23
24
25
26
27
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
Kenneth B. VanHove
John C. Petrucci
Timothy J. Miller
Sean T. Sullivan
Randall D. Yoder
Nancy J. Kovalchick
Jennifer L. Bergey
Dharam V. Jain
Kandasamy Selvavel
Erin S. Hart
